300 N. LaSalle Street
Suite 4000
Chicago, Illinois 60654-3406
312-715-5000
Fax 312-715-5155
www.quarles.com

Attorneys at Law in
Chicago
Indianapolis
Madison
Milwaukee
Minneapolis
Naples
Phoenix
Tampa
Tucson
Washington, D.C.

Writer's Direct Dial: 312-715-5143
E-Mail: King.Poor@quarles.com

October 11, 2019

Via UPS Overnight and by E-Filing
Mr. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20543
Re:

Zamore v. Deutsche Bank National Trust Company, Individually and as Trustee
for JP Morgan Mortgage Acquisition Trust 2007-CH5 Asset Backed PassThrough Certificates Series 2007•CH5, et al. No. 19-125

Dear Mr. Harris:
Under Supreme Court Rule 30.4, the respondent requests a 30-day extension of time to
file its brief in opposition to the petition for certiorari. The brief is currently due on October 18,
2019.
While the respondent has made substantial progress toward preparing its brief, it requires
this additional time to allow for internal review. As a result, the respondent requests that the due
date for its brief be extended to November 18, 2019.
Respectfully submitted,
/s/ E. King Poor
Counsel of Record for Respondent
EKP/mas
cc: Counsel for petitioner (by email)

